No. 20-1767

In the

Supreme Court of the United States
SARASOTA WINE MARKET, LLC, ET AL.,
Petitioners,
v.
ERIC S. SCHMITT,
ATTORNEY GENERAL OF MISSOURI, ET AL.,
Respondents.

CERTIFICATE OF COMPLIANCE
Pursuant to Rule 33.1(h) of the Rules of this Court, I certify that the
accompanying Brief of 22 Wine Consumers as Amici Curiae in Support of
Petitioners, contains 1,469 words. This certificate was prepared in reliance upon the
word count function of the word processing software used to prepare this Brief
(Microsoft Word).
I declare under penalty of perjury that the foregoing is true and correct.
This 20th day of July 2021.

/s/ J. Gregory Troutman
J. GREGORY TROUTMAN
TROUTMAN LAW OFFICE, PLLC.
4205 Springhurst Boulevard,
Suite 201
Louisville, KY 40241
(502) 412-9179
jgtatty@yahoo.com

